             U.S. DEPARTMENT OF THE INTERIOR
                 OFFICE OF INSPECTOR GENERAL

                                AUDIT REPORT


     BUREAU OF INDIAN AFFAIRS
    CONTRACT WITH THE NAVAJO
    NATION FOR SOCIAL SERVICES




REPORT NO. Q-IN-BIA-0098-2003    SEPTEMBER 2004
This Page Intentionally Left Blank
TABLE OF CONTENTS
                                                                                                                           PAGE
Introduction...……..................................................................................... . 1

         BACKGROUND ...........................................................................................…….           1

         SCOPE AND METHODOLOGY ..............................................................................                3

Results of Audit. ........................................................................................ . 5

         FINANCIAL AND INFORMATION MANAGEMENT ..................................................                             5

         SUBCONTRACTORS .............................................................................................        6

         WORKER CASELOAD REPORTING .......................................................................                   6

         DIVISION-OPERATED RESIDENTIAL FACILITIES .................................................                          7

         BIA OVERSIGHT ................................................................................................      7

         RECOMMENDATION............................................................................................          7

         BIA RESPONSE ..................................................................................................     7

         OIG CONCLUSION ..............................................................................................       8


Appendices

         1. BIA RESPONSE TO DRAFT REPORT .............................................................                       9

         2. STATUS OF AUDIT RECOMMENDATIONS ...................................................... 13




                                                              i
This Page Intentionally Left Blank




                   ii
INTRODUCTION
                                  This report presents the results of our audit of the Bureau of
                                  Indian Affairs’ (BIA) Public Law 93-6381 contract with the
                                  Navajo Nation for social services. During our audit survey,
                                  we reviewed various aspects of the Navajo Nation’s
                                  performance under the contract, contract funding, and BIA
                                  oversight.

                                  We concluded our audit at the end of the survey phase of the
                                  audit because of a dispute between the Navajo Nation and
                                  BIA over revisions to the Federal regulations for Social
                                  Services for Indians, the Navajo Nation’s planned conversion
                                  to a new accounting system, and the Navajo Nation Division
                                  of Social Services (Division) reorganization and changes in
                                  internal policy and procedures.

                                  Although our audit work was limited, we identified areas
                                  where improvements could be made to the social services
                                  program performance, most notably in financial and
                                  management controls. Improved monitoring and technical
                                  assistance from BIA in these areas could be beneficial to
                                  enhance the effectiveness and efficiency of the program.

                                  BIA has contracted with the Navajo Nation for the delivery of
    Background                    social services including welfare assistance for eligible
                                  participants. The welfare assistance program provides for the
                                  basic needs of eligible Indians who have no access to such
                                  assistance from state or local governments.

                                  Under the contract provisions, the Division is responsible for
                                  providing welfare assistance payments, adult and elderly
                                  institutional and in-home care services, and Child Protective
                                  Services (CPS). CPS is provided to children who require
                                  protection from abuse, neglect, abandonment, or exploitation.
                                  The Navajo Nation is responsible for carrying out the
                                  provisions of the contract in accordance with all applicable
                                  federal standards including necessary management controls.
                                  The Navajo Nation received $29.6 million and $31.4 million
                                  in fiscal years 2002 and 2003, respectively, for its social
                                  services program.


1
    Indian Self-Determination and Education Assistance Act.


                                                     1
                   According to the Code of Federal Regulations (25 CFR part
                   900.45), which establishes minimum financial management
                   requirements for Indian Self Determination contracts, an
                   Indian tribe’s financial management system should provide
                   for accurate and current financial reports. Also, the financial
                   management system should maintain effective control and
                   accountability for all self-determination contract funds and
                   accounting records should be supported by source
                   documentation. BIA has the responsibility to facilitate the
                   efforts of tribes to plan, conduct, and administer programs and
                   services.

Contract Renewal   BIA had not renegotiated its contract with the Navajo Nation
                   for the social services program in a timely manner. The
                   original four-year contract period expired on December 31,
                   2000, and as of October 2003, the program was still operating
                   under contract extensions and outdated regulations. BIA
                   attributed the delay in renegotiation of the contract to disputed
                   changes in Federal regulations.

                   Specific regulations for the operation of social service
                   programs are contained in the Code of Federal Regulations
                   (25 CFR part 20). On October 20, 2000, a final rule was
                   published in the Federal Register to amend the existing
                   regulations. The Navajo Nation disagreed with some of the
                   changes and submitted written waiver requests in July 2001.
                   After the conclusion of our survey work, BIA issued final
                   responses to 26 consolidated waiver requests.

Contract Funding   The original 1997 contract stated that, in general, payments to
                   the contractor shall be made as expeditiously as practicable.
                   Historically, the BIA policy for distributions of welfare
                   assistance funds had been that the initial distribution equals 75
                   percent of the previous year’s funding. However, the BIA
                   funded the Navajo Nation social services contract in a
                   piecemeal fashion because of the contract renewal issues.
                   From October 2002 to May 2003, BIA issued a total of nine
                   funding allocations for the contract. As a result, the Division
                   has been limited in its ability to properly plan and budget for
                   program activities. In addition, welfare assistance payments
                   for July 2003 were delayed because the needed funding was
                   not provided in a timely manner by BIA.




                                    2
              The scope of our audit was generally limited to program costs
Scope and     and welfare payments during fiscal years 2002 and 2003.
Methodology   However, we expanded our scope as necessary to evaluate
              actions taken by the Division for long-standing deficiencies it
              identified in subcontractor evaluations and case file quality
              assurance reviews.

              We reviewed the laws, regulations, contract provisions, and
              Division policy and procedures applicable to the Navajo
              Nation’s social services programs. We discussed the policy
              and procedures with BIA and Division personnel and
              reviewed social worker case files and subcontractor invoices
              to evaluate compliance with the applicable laws and
              regulations. We selected 30 CPS cases and 17 welfare
              assistance cases for our review. In addition, we selected and
              reviewed amounts invoiced by 8 subcontractors for 75 clients.

              To accomplish our audit, we visited the BIA’s Navajo
              Regional Office in Gallup, New Mexico, and the Navajo
              Nation Division of Social Services’ administrative offices in
              Window Rock, Arizona. We also visited the Division’s Fort
              Defiance, Chinle, and Eastern (Crownpoint/Gallup) regional
              offices.




                               3
This Page Intentionally Left Blank




                4
RESULTS OF AUDIT
                We identified areas where improvements could be made to
                the Navajo Nation’s administration of the social services
                program pertaining to financial management, subcontractor
                operations, caseload reporting and residential care activities.
                Also, we believe that strengthened oversight by BIA and the
                provision of technical assistance to the Navajo Nation will
                facilitate better contract performance. These areas are
                discussed below.

Financial and   We identified weaknesses in financial and case file
Information     management as follows:
Management
                   ¾ Monthly financial reports did not always agree to the
                     supporting general assistance database, manual
                     spreadsheets, or the Navajo Nation Financial
                     Reporting System. In addition, the Navajo Nation
                     did not perform reconciliations to match financial
                     and client data to the information reported on
                     monthly and quarterly reports.

                   ¾ Required Financial Status Reports and Annual
                     Audits under the Single Audit Act were not
                     completed and submitted in a timely manner.

                   ¾ At two of the three Division regional offices we
                     visited, payroll costs for work performed on state-
                     funded programs were incorrectly charged to the
                     BIA funded contract.

                   ¾ Subcontractors to the Navajo Nation were not always
                     required to apply the proper amount of client income
                     to the cost of care. A review of subcontractor
                     invoices for 75 clients showed that the full amount of
                     eligible client income was not applied against the
                     cost of care for 12 adult clients. Additional funds
                     could be available for the social services program by
                     requiring that subcontractors apply the proper
                     amount of client income to the cost of care.

                   ¾ Information in the case files was not always
                     sufficient to verify invoiced amounts and/or client
                     income. Due to inadequate case file documentation,


                                 5
                         we were unable to verify rates charged for level of
                         care and/or client income for 23 of the 75 clients
                         invoiced.

Subcontractors    Deficiencies identified by the Division in its evaluations of
                  subcontractor performance were not adequately tracked or
                  corrected. The Division has agreements with private
                  subcontractors to provide specialized services such as child
                  emergency shelters and non-medical care of adults. These
                  agreements specify that the Division is to evaluate the
                  subcontractor’s performance annually and require that the
                  subcontractor promptly correct any deficiencies identified in
                  the evaluation report. However, in our review of selected
                  evaluation reports, we found that corrective action plans
                  addressing prior year deficiencies had not been submitted by
                  five of nine subcontractors. One subcontractor had not
                  submitted corrective action plans for three years and another
                  for two years. These deficiencies continue to exist and
                  include issues that could result in clients unnecessarily
                  exposed to health and safety risks.

                  Actively tracking report recommendations through to
                  resolution is important for the timely and effective
                  correction of identified deficiencies. A series of follow-up
                  letters to subcontractors could be beneficial when response
                  due dates are missed. Such a control system would provide
                  evidence that the Division is exercising due diligence in its
                  fiduciary responsibility towards its clients. A control system
                  would also support any adverse action against
                  subcontractors for failure to take corrective action.

Worker Caseload   At the three Division regions we visited, social worker
Reporting         caseloads were inconsistently and inaccurately reported. For
                  example, the Division implemented the “Continuum of
                  Services Model” about two years ago which specified that
                  case files would be maintained on the basis of a family unit
                  versus individual children. However, this procedure was not
                  followed at Fort Defiance or Crownpoint. As a result, the
                  caseload statistics may be skewed due to the inconsistencies
                  between regions and caseworkers in tracking caseloads.

                  Case assignments based on accurate worker caseloads and
                  consistency in reporting caseloads between the regions is
                  important to ensure adequate time is allowed for




                                  6
                         caseworkers to effectively plan, provide, and evaluate case
                         management tasks.

Division-Operated        The method of funding the five Division-operated youth
Residential Facilities   home facilities, based on capacity rather than actual
                         occupancy, should be reevaluated. Division officials told us
                         that this method of funding allows these facilities to be able
                         to provide services as needed at any given time. A Division
                         official further stated that local facilities are needed, but that
                         the occupancy rate fluctuates. For example, services at the
                         Chinle Youth Home were suspended last year due to a low
                         occupancy rate. Division personnel stated that only two of
                         the six beds were regularly filled. The cost to subsidize the
                         facility for the unfilled beds was $441 for each day that the
                         youth home was at only one third of capacity. As of October
                         2003, the youth home was scheduled to be reopened with
                         nine staff positions allocated.

                         A reassessment of service population needs and a possible
                         revision of the scope of work for elderly and youth
                         residential services would allow for a more efficient use of
                         available funding for temporary care services.

BIA Oversight            BIA’s oversight is performed by individuals knowledgeable
                         about administering social services. However, the
                         individuals are not familiar with the requirements or best
                         practices for financial and information management systems
                         for such programs. A responsible BIA official said that
                         current BIA oversight did not include monitoring financial
                         reports or allocation of costs to various programs. The
                         official stated that oversight personnel would need additional
                         training to understand financial reports and to monitor
                         financial processes and controls.

Recommendation           We recommend that the Assistant Secretary for Indian
                         Affairs take steps to strengthen the oversight process for the
                         Navajo Nation social services contract to include
                         monitoring, by personnel with the requisite knowledge to
                         perform the oversight, and technical assistance to help the
                         Navajo Nation improve financial and program management
                         controls.

BIA Response             In its September 9, 2004, response to the draft audit report
                         (Appendix 1), BIA concurred with the recommendation.
                         BIA has already completed some corrective actions and
                         identified additional planned corrective actions in their



                                           7
                 response. BIA is strengthening its contract oversight by
                 establishing ongoing processes for program evaluation and
                 management controls for not only the Navajo Nation Social
                 Services contract, but also other Public Law 93-638
                 contracted programs as well.

OIG Conclusion   OIG considers this recommendation resolved but not
                 implemented. The recommendation will be referred to the
                 Assistant Secretary for Policy, Management and Budget for
                 tracking of implementation.




                                8
    Appendix 1




9
10
11
12
                                                     Appendix 2



      STATUS OF AUDIT RECOMMENDATION

Recommendation            Status          Action Required

      1          Resolved; not     No further response to the
                 implemented.      Office of Inspector General is
                                   required. The
                                   recommendation will be
                                   referred to the Department’s
                                   Focus Leader for Management
                                   Accountability and Audit
                                   Follow-up for tracking of
                                   implementation.




                            13
This Page Intentionally Left Blank




               14
This Page Intentionally Left Blank




               15
This Page Intentionally Left Blank




               16
